Appendix

Knotts v. State, Not Reported in S.E. Rptr. (2020)

WESTIAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Knotts v. State, Not Reported in S.E. Rptr. (2020)

2020 WL 2911855
Only the Westlaw citation is currently available.
UNPUBLISHED OPINION. CHECK COURT RULES BEFORE CITING.
Supreme Court of Appeals of West Virginia.

Zachary KNOTTS, Petitioner Below, Petitioner
v.
STATE of West Virginia, Respondent Below, Respondent
No. 19-0304
FILED June 3, 2020
(Marion County 19-C-l)

MEMORANDUM DECISION
*1 Petitioner Zachary Knotts, self-represented, appeals the March 1, 2019, order of the Circuit Court of Marion County
denying his petition for a writ of error coram nobis. Respondent State of West Virginia (“the State”), by counsel Holly M.
Flanigan, filed a summary response in support of the circuit court’s order. Petitioner filed a reply.
The Court has considered the parties’ briefs and the record on appeal. The facts and legal arguments are adequately presented,
and the decisional process would not be significantly aided by oral argument. Upon consideration of the standard of review, the
briefs, and the record presented, the Court finds no substantial question of law and no prejudicial error. For these reasons, a
memorandum decision affirming the circuit court’s order is appropriate under Rule 21 of the Rules of Appellate Procedure.
On September 30, 2010, petitioner was arrested and charged with the offense of threats of terrorist acts in violation of West
Virginia Code § 61-6-24fb). Following the February 7, 2011, indictment of petitioner, the State filed a motion for a
competency evaluation. The Circuit Court of Marion County held a hearing on the issue of petitioner’s competency on March
11, 2011. By order entered March 23, 2011, the circuit court determined that petitioner was not competent to stand trial and
committed him to William R. Sharpe, Jr. Hospital (“the hospital”) pursuant to West Virginia Code § 27-6A-3(h) until either the
circuit court’s jurisdiction over him ended or until such time as he was found competent to stand trial, whichever occurred
sooner.1
*2 On March 4, 2013, petitioner filed a motion, pursuant to West Virginia Code § 27-6A-6. to establish a defense (other than
by reason of mental illness) to the charge against him so that he could obtain a dismissal of the indictment and end the circuit
court’s jurisdiction over him. The circuit court held a bench trial, as required by West Virginia Code § 27-6A-6. on June 26,
2013. By order entered July 2, 2013, the circuit court found sufficient evidence to sustain a conviction of a terrorist threat,
pursuant to West Virginia Code § 61-6-24fb). had petitioner been competent to stand trial. This Court affirmed the circuit
court’s determination in State v. Knotts. 233 W. Va. 665. 760 S.E.2d 479 120141. Accordingly, the circuit court’s.jurisdiction

over petitioner pursuant to West Virginia Code $ 27-6A-3(h) continued for a period of three years, the maximum sentence set
forth in West Virginia Code g 61-6-24(bl. On February 11, 2014, the circuit court’s jurisdiction over petitioner ended, and he
was released from the hospital.
On January 2, 2019, petitioner filed a petition for a writ of error coram nobis, alleging a multitude of constitutional violations
in the Knotts criminal proceeding and an inability to continue his chosen career as a result of that proceeding. The State filed a
response on January 11, 2019, asserting that the petition failed to state a claim on which relief may be granted. By order
entered on March 1, 2019, the circuit court denied the petition, finding:
After reviewing [petitioner’s] petition and the underlying felony case, the [c]ourt finds that [petitioner] has failed to state a
claim that would entitled him to relief on a writ of error coram nobis. One of the predicate requirements of a writ is that the
petitioner is seeking relief from a “conviction.” [Petitioner] was not convicted in [Knotts'], but was found not competent to
stand trial and never regained competency during the time that the [c]ourt maintained jurisdiction pursuant to West Virginia
Code $ 27-6A-3flfi.
Petitioner now appeals the circuit court’s March 1, 2019, order denying his petition for a writ of error coram nobis. This Court
reviews circuit court orders denying coram nobis relief under the following standard:
“We review the final order and the ultimate disposition under an abuse of discretion standard, and we review the circuit
court’s underlying factual findings under a clearly erroneous standard. Questions of law are subject to a de novo review.”
State v. Allen. 208 W, Va. 144. 150. 539 S.E.2d 87. 93 119991 (quoting Syl. pt. 2, Walker v. West Virginia Ethics Comm n,
201 W. Va. 108. 492 S.E.2d 167 (T997V).
State v. Hutton ("Hutton l"). 235 W, Va. 724, 121. 776 S.E.2d 621, 624 120151. In Syllabus Point 2 of State v. Hutton
rHutton 11"). 209 W. Va. 853. 806 S.E.2d 777 (2017'). we held:
“A claim of legal error may be brought in a petition for a writ of error coram nobis only in extraordinary circumstances and
if the petitioner shows that (1) a more usual remedy is not available; (2) valid reasons exist for not attacking the conviction
earlier; (3) there exists a substantial adverse consequence from the conviction; and (4) the error presents a denial of a
fundamental constitutional right.” Syllabus point 5, [Hutton 7],
(Emphasis added.). “It has been recognized that ‘[fjailure to establish any of the above elements will defeat a petition for coram
nobis relief.’ ” Hutton II. 239 W, Va. at 858. 806 S.E.2d at 782 (quoting Borelli v. U.S.. No. 17-2814 (JLL). 2017 WL
4074027. at *2 fD.N.J. Sent. 14. 2017V).
On appeal, petitioner argues that the circuit court should be reversed and this case remanded for an evidentiary hearing on the
constitutional violations he alleges. The State counters that one of the predicate requirements for seeking a writ of error coram
nobis is a prior conviction and, in petitioner’s criminal case, there was no conviction. Based on our review of the record, we
agree with the State and find that the circuit court did not abuse its discretion in denying the petition.
*3 For the foregoing reasons, we affirm the circuit court’s March 1, 2019, order denying petitioner’s petition for a writ of error
coram nobis.
Affirmed.

CONCURRED IN BY:
Chief Justice Tim Armstead
Justice Margaret L. Workman
Justice Elizabeth D. Walker
Justice Evan H. Jenkins
Justice John A. Hutchison
All Citations
Not Reported in S.E. Rptr., 2020 WL 2911855
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Knotts v. State, Not Reported in S.E. Rptr. (2020)

Footnotes

1

West Viroinia Code S 27-6A-3(ht provides:
If at any point in the proceedings the defendant is found not competent to stand trial and is found not substantially
likely to attain competency, and if the defendant has been indicted or charged with a misdemeanor or felony in which
the misdemeanor or felony does involve an act of violence against a person, then the court shall determine on the
record the offense or offenses of which the person otherwise would have been convicted, and the maximum
sentence he or she could have received. A defendant shall remain under the court s jurisdiction until the expiration of
the maximum sentence unless the defendant attains competency to stand trial and the criminal charges reach
resolution or the court dismisses the indictment or charge. The court shall order the defendant be committed to a
mental health facility designated by the department that is the least restrictive environment to manage the defendant
and that will allow for the protection of the public. Notice of the maximum sentence period with an end date shall be
provided to the mental health facility. The court shall order a qualified forensic evaluator to conduct a dangerousness
evaluation to include dangerousness risk factors to be completed within thirty days of admission to the mental health
facility and a report rendered to the court within ten business days of the completion of the evaluation. The medical
director of the mental health facility shall provide the court a written clinical summary report of the defendant's
condition at least annually during the time of the court’s jurisdiction. The court’s jurisdiction shall continue an
additional ten days beyond any expiration to allow civil commitment proceedings to be instituted by the prosecutor
pursuant to article five of this chapter. The defendant shall then be immediately released from the facility unless
civilly committed.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Knotts v. State, Not Reported in S.E. Rptr. (2020)

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Knotts v. State, Not Reported in S.E. Rptr. (2020)

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government
Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

E-FILED | 3/1/2019 9:02 AM
CC-24-2019-C-1
Marion County Circuit Clerk
Rhonda Stam

/s/ David R. Janes
Circuit Court Judge
Ref. Code: 193PSM3C

In the Circuit Court of Marion County, West Virginia
ZACHARY KNOTTS,
Plaintiff,
vs.)
State of West Virginia,
Defendant

)
)
)
)
)
)
)
)

Case No. CC-24-2019-C-1

FINAL ORDER DENYING PETITION FOR WRIT OF ERROR CORAM NOBIS
This Court is in receipt of, and has reviewed, a Petition For Writ of Error Coram Nobis
(hereafter “petition”) submitted by Zachary Allen Knotts, pro se, on January 2, 2019. In his
petition, Mr. Knotts raises twenty grounds for relief from his “conviction” in Marion County
Case No. ll-F-33.
After due consideration of the petition and the entire record, as well as researching the
legal issues presented, this Court is of the opinion that Mr. Knott’s petition should be denied, and
further, that no hearing with regard thereto is warranted. In support of this opinion, the Court
makes the following findings of fact and conclusions of law:
/
/

Findings of Fact
1.

Zachary Allen Knotts was indicted in the Circuit Court of Marion County,

Division II, during its February 2011 Term of Court in Case No. ll-F-33. The grand jury
returned a one (1) count indictment charging Mr. Knotts with Threats of Terrorist Acts, a felony
and violation of West Virginia Code § 61-6-24. Indictment - Docket #1 - State v. Zachary Allen
Knotts (ll-F-33).
2.

The criminal complaint alleged that on September 30, 2010, Mr. Knotts called

the Fairmont Federal Credit Union several times and traveled to the bank to discuss his account.
Mr. Knotts was concerned his account was going to be closed. While at the bank, Mr. Knotts
began engaging in conversation with a pregnant female employee about circumcisions and asked

-l

'

the employee whether she intended to have her son circumcised. Mr. Knotts also began
addressing females having foreskin over their private parts in some regions. Mr. Knotts became
upset and threatened to put devices on the employees’ cars and blow them up. Mr. Knotts told
one employee over the phone that she didn’t deserve to live. Mr. Knotts then traveled to the
Fairmont Federal Credit Union and sat across the street from the bank. Criminal Complaint Docket #3 - State v. Zachary Allen Knotts (ll-F-33).
3.

On October 18, 2010, the Court entered an agreed order to have Mr. Knotts

undergo a mental competency to stand trial evaluation and a criminal responsibility evaluation.
Mr. Knotts’ attorney, Michelle Minutelli, had reported that Mr. Knotts had exhibited behaviors
that indicated that he may not be mentally competent and had some doubt that Mr. Knotts would
be able to aid in his defense at trial. Ms. Minutelli was also concerned that Mr. Knotts may have
had an impaired mental condition at the time of the alleged offense that rendered him unable to
form any specific intent. Agreed Order For Initial Forensic Examinations To Determine
Competency And/Or Criminal Responsibility - Docket #16 - State v. Zachary Allen Knotts (llF-33).
4.

Mr. Knotts was evaluated on November 16, 2010, by Dr. Bobby A. Miller, II,

M.D., a forensic psychiatrist and neuropsychiatrist at Forensic Psychiatry, PLLC. Dr. Miller
opined that Mr. Knotts was competent to stand trial, but was not criminally responsible for his
behavior due to a brain injury. Dr. Miller stated that Mr. Knotts’ brain injury affects his frontal
lobe functioning in the following ways: inability to inhibit impulses; hypersexual; poor
judgment; glib and superficial; unware of the nature and extent of his brain injury; and now
aggressiveness. Forensic Psychiatry Evaluation - Docket #24 - State v. Zachary Allen Knotts
(ll-F-33).
5.

On January 18, 2011, the Court entered a second agreed order for an additional

competency to stand trial evaluation and a criminal responsibility evaluation to be conducted.
The order advised that both the State and Mr. Knotts’ new attorney, Sean Murphy, agreed that
Mr. Knotts should undergo an additional competency to stand trial evaluation and criminal
responsibility evaluation. Mr. Murphy reported that Mr. Knotts had exhibited behaviors
indicating that Mr. Knotts may not be mentally competent to stand trial or be able to actively and
ably participate in his defense at trial. Agreed Order For Initial Forensic Examination to
Determine Competency And/or Criminal Responsibility- Docket #46 - State v. Zachary Allen
Knotts (Tl-F-33).
6.

On January 21, 2011, Dr. Cheryl Hill, MD, Ph.D., evaluated Mr. Knotts and

prepared a Forensic Psychiatry Report Competence to Stand Trial and Criminal Responsibility
Evaluation dated February 3, 2011. In her report, Dr. Hill opined that Mr. Knotts was not capable
of participating substantially in his own defense but may regain competency with medication
management and training. Dr. Hill did not give an opinion with regard to Mr. Knotts’ criminal
responsibility. Forensic Psychiatry Evaluation - Docket #53 - State v. Zachary Allen Knotts (llF-33).
7.

On March 11, 2011, the Court conducted a competency hearing. Dr. Cheryl Hill

testified that she did not believe Mr. Knotts was competent to stand trial. Dr. Bobby Miller
testified that it was his opinion that Mr. Knotts was competent to stand trial, but that he was not
criminally responsible. Clerk’s Notes: Competency Hearing - Docket #44 - State v. Zachary
Allen Knotts (ll-F-33).
8.

On March 17, 2011, Mr. Murphy filed a motion to dismiss, arguing that Mr.

Knotts actions were not a crime under West Virginia Code § 61-3-24(a)(3), and that the statute is
constitutionally vague, thus unenforceable. The Court conducted a hearing on the motion on
March 22, 2011. Motion to Dismiss - Docket #50 - State v. Zachary Allen Knotts (ll-F-33).

9.

On March 22, 2011, the Court entered an order finding Mr. Knotts not competent

to stand trial. The Court ordered that Mr. Knotts be committed to Sharpe Hospital for a term of
three months or until such time that he became competent to stand trial. Order Finding
Defendant Not Competent to Stand Trial and Committing Defendant to Shame Hospital - Docket
#56 - State v. Zachary Allen Knotts (T l-F-33).
10.

On June 21, 2011, the Court received Mr. Knotts’ three month competency

evaluation from Sharpe Hospital. The evaluation was conducted by Dr. Susanne Choby on June
2, 2011. Dr. Choby opined that Mr. Knotts remained incompetent to stand trial and was unlikely
to attain competency due to the permanent effects of his brain injury. Forensic Psychiatry
Evaluation - Docket #62 - State v. Zachary Allen Knotts (1 l-F-33).
11.

The Court held a competency hearing on June 29, 2011. On July 19,2011, the

Court entered an order finding that Mr. Knotts was not competent to stand trial and that he was
not substantially likely to attain competency. The Court found that the indictment involved an act
of violence against a person or persons. The Court ordered Mr. Knotts be committed to a mental
health inpatient facility for not less than one nor more than three years, the maximum sentence
he would have received had he been convicted at trial. The Court maintained jurisdiction over
Mr. Knotts for three years, or until such time that Mr. Knotts regained competency and the
criminal charges reached a resolution, whichever was sooner. The Court would be divested of
jurisdiction on February 1, 2014, plus ten days to allow that prosecuting attorney to institute civil
commitment proceedings. The Court ordered a dangerousness assessment be conducted
including dangerousness risk factors within thirty days of Mr. Knotts’ admission. William R.
Sharpe Hospital was ordered to submit an annual summary report of Mr. Knotts’ condition
during the time the Court maintained jurisdiction. Clerk’s Notes: Competency Hearing - Docket
#65 - State v. Zachary Allen Knotts 0 l-F-33); Court’s Finding On Defendant’s Competency To

.— L^J

Stand Trial - Docket #66 - State v. Zachary Allen Knotts (ll-F-33).
12.

On March 27, 2013, Mr. Murphy filed a motion for the opportunity to offer a

defense to the charges pending against Mr. Knotts pursuant to West Virginia Code § 27-6A-6.
Mr. Murphy requested that the Court hold an evidentiary hearing without a jury to determine if
there was sufficient evidence to convict Mr. Knotts of the charges in the indictment. Defendant’s
MotionFor Opportunity to Offer a Defense to the Charges Pending Against the Defendant Before
the Court - Docket #86 - State v. Zachary Allen Knotts (ll-F-33).
13.

On June 26, 2013, the Court conducted a bench trial at which time the Court

heard the testimony of Randy Lynn Morris, an employee of the Fairmont Federal Credit Union,
Detective Chip Phillips with the Marion County Sheriff’s Department, and Mr. Knotts. The State
introduced Mr. Knotts’ waiver of rights (Exhibit #1) and the recorded statement of Mr. Knotts
(Exhibit #2). Clerk’s Notes: Bench Trial - Docket #92 - State v. Zachary Allen Knotts (ll-F-33).
14.

Following the competency hearing, the Court entered an order on July 2, 2013,

finding sufficient evidence to sustain a conviction against Mr. Knotts for the offense of Threats
of Terrorist Acts. Order Finding Sufficient Evidence Of Crime To Sustain A Conviction Pursuant
To W.VA. Code §27-6A-6 - Docket #94 - State v. Zachary Allen Knotts (ll-F-33).
15.

On July 22, 2013, Mr. Murphy filed his notice of intent to appeal the Court’s

decision to the West Virginia Supreme Court of Appeals. Notice of Appeal - Docket #95 - State
v. Zachary Allen Knotts (ll-F-33).
16.

The Court’s jurisdiction in this matter ended on February 11, 2014, at which time

the maximum sentence period, including the ten day window for civil commitment proceedings,
expired. Court’s Finding On Defendant’s Competency To Stand Trial - Docket #66 - State v.
Zachary Allen Knotts (ll-F-33).
17.

On May 28, 2014, the Court entered an order removing the case from the Court’s

docket. Order Removing Case From Court Docket - Docket #105 - State v. Zachary Allen
Knotts (ll-F-33).
18.

On June 5, 2014, the West Virginia Supreme Court of Appeals issued its ruling

affirming the prior decision of this Court. West Virginia Supreme Court of Appeals OpinionDocket #108 - State v. Zachary Allen Knotts (ll-F-33).
19.

On January 2, 2019, Mr. Knotts filed a pro se Petition For Writ of Error Coram

Nobis with the Circuit Court of Marion County, West Virginia. Mr. Knotts raised the following
grounds of error: (1) the court reporter was in violation of 18 USC 1001 by falsifying court
documents to protect a state employee and hurt Mr. Knotts at the Supreme Court hearing; (2) his
attorney failed to file a habeas corpus after his bench trial; (3) his attorney failed to move the
Court for a new trial after his bench trial; (4) Mr. Knotts did not sign a waiver of his rights before
giving his statement in violation of the fourth amendment; (5) Dr. Hill was not an expert and
made false statements in her report concerning Mr. Knotts’ health and life history; (6) his
attorney failed to inform him of the consequences of failing his second evaluation; (7) his
attorney failed to provide him with his discovery packet; (8) his attorney failed to provide him
with copies of his competency evaluation reports; (9) his attorney failed to follow rule 609
regarding impeachment at his bench trial; (10) his attorney failed to include 15 pages of
transcript on appeal; (11) his attorney failed to read a police report containing a witness
statement; (12) his attorney failed to read a witness report that was submitted to the Supreme
Court; (13) his attorney did not submit all three police reports on appeal; (14) his attorney failed
to object to the prosecutor leading a witness; (15) his psychiatric evaluation was not conducted
by an expert; (16) Sharpe Hospital failed to comply with State law; (17) fourteenth amendment
violation; (18) the Court erred by finding Mr. Knotts incompetent; (19) eighth amendment
violation for cruel and unusual punishment; and (20) eighth amendment violation for excessive

B

bail. Petition For Writ Of Error Coram Nobis - Docket #1 - Zachary Knotts v. State of West
Virginia (19-C-l).
20.

On January 10, 2019, Mr. Knotts filed a motion demanding a jury trial on his

writ. Motion For Demanding Jury On 19-C-l - Docket #11 - Zachary Knotts v. State of West
Virginia (19-C-l).
21.

Marion County Prosecuting Attorney, Jeffrey L. Freeman, filed the State’s

response to Mr. Knotts petition on January 11, 2019. In its response, the State argues that the
petition is not proper either in form or substance and fails to state a claim upon which relief can
be granted. The State also argued that the petition is nonsensical and does not rationally state any
allegations of facts or errors of law that it may reasonably answer. State’s Response To Petition
For Writ Of Coram Nobis - Docket #12 - Zachary Knotts v. State of West Virginia (19-C-l).
22.

On January 16, 2019, Mr. Knotts filed a second motion demanding a jury trial

and a petition for writ of mandamus. 2nd Motion For Demand Of Jury On 19-C-l Case - Docket
#15 - Zachary Knotts v. State of West Virginia (19-C-l); Petition For Writ Of Mandamus And
Qu Warranto #16 - Zachary Knotts v. State of West Virginia (19-C-l).
23.

On January 23, 2019, Mr. Knotts filed his reply to the State’s response to his

petition for writ of error coram nobis. Plaintiffs Reply To Defendant’s Answer- Docket #17
Zachary Knotts v. State of West Virginia (19-C-l).
24.

On February 7, 2019, Mr. Knotts filed a motion requesting a status conference

and scheduling order in this case. Motion For Status Conference - Docket #18 - Zachary Knotts
v. State of West Virginia (19-C-l).
Conclusions of Law
1.

A writ of error coram nobis is available only in criminal proceedings and may be

brought only under extraordinary circumstances. State v. Hutton, 235 W.Va. 724 (2015).

& -(o

2.

“As a remedy of last resort, the writ of error coram nobis is granted only where

an error is of the most fundamental character and there exists no other available remedy.” United
States v. Akinsade, 686 F.3d 252 (4th Cir.2012).
3.

A writ of error coram nobis is limited to those cases where the petitioner can

show that (1) a more usual remedy is not available; (2) valid reasons exist for not attacking the
conviction earlier; (3) there exists a substantial adverse consequence from the conviction; and (4)
the error presents a denial of a fundamental constitutional right. Hutton, 235 W.Va. at 742.
(emphasis added).
4.

“It has been recognized that ‘[fjailure to establish any of the above elements will

defeat a petition for coram nobis relief.”’ State v. Hutton, 239 W. Va. 853, 858, 806 S.E.2d 777
782 (2017), ciriwgBorelli v. United States. No. 17-2814 (JLL), 2017 WL 4074027, at *2 (D.N.J.
Sept. 14, 2017). (emphasis added).
5.

“It is a fundamental guaranty of due process that a defendant cannot be tried or

convicted for a crime while he or she is mentally incompetent.” Syl. Pt. 1, State v. Sanders, 209
W. Va. 367, 549 S.E.2d 40 (2001).
6.

With regard to mentally ill persons charged with crimes, West Virginia Code §

27-6A-3(h) provides that:
[I]f the defendant has been indicted or charged with a misdemeanor or felony in
which the misdemeanor or felony does involve an act of violence against a
person, then the court shall determine on the record the offense or offenses of
which the person otherwise would have been convicted, and the maximum
sentence he or she could have received. A defendant shall remain under the
court's jurisdiction until the expiration of the maximum sentence unless the
defendant attains competency to stand trial and the criminal charges reach
resolution or the court dismisses the indictment or charge. The court shall order
the defendant be committed to a mental health facility designated by the
department that is the least restrictive environment to manage the defendant and
that will allow for the protection of the public.
State v. Riggleman, 798 S.E.2d 846. (emphasis added).

a

7.

In Riggleman, the West Virginia Supreme Court of Appeals held in Syllabus

Point Four, in part, that: “[t]he purpose of West Virginia Code § 27-6A-3 (Supp.1996) is not to
punish someone suffering a mental illness; rather, it is to treat the illness and protect society.”
State v, Riggleman, 798 S.E.2d 846, 850 (W. Va. 2017), cz'hngSmith, 198 W.Va. at 704, 482
S.E.2d at 689.
8.

After reviewing Mr. Knotts’ petition and the underlying felony case, the Court

finds that Mr. Knotts has failed to state a claim that would entitle him to relief on a writ of error
coram nobis. One of the predicate requirements of a writ is that the petitioner is seeking relief
from a “conviction”. Mr. Knotts was not convicted in Case No. ll-F-33, but was found not
competent to stand trial and never regained competency during the time that the Court
maintained jurisdiction pursuant to West Virginia Code § 27-6A-3(h). Therefore, Mr. Knotts’
failure to establish a conviction as a vital element is fatal to his petition for coram nobis relief.
Accordingly, for the reasons set forth in the foregoing opinion, the Court is of the opinion
to, and does hereby, ORDER the following:
(1) the relief requested in Mr. Knott’s Petition for Writ of Error Coram Nobis shall be,
and the same is, hereby DENIED;
(2) Mr. Knotts’ motion for a status conference is DENIED;
(3) Mr. Knotts’ motion for a jury trial is DENIED;
(4) the Petition for Writ of Error Coram Nobis, filed by Mr. Knotts, shall be, and the
same is, hereby DISMISSED, without the necessity of an evidentiary hearing;
(5) the hearing previously scheduled in this matter for March 19, 2019 at 10:00 a.m. is
no longer necessary and is hereby CANCELLED; and
(6) the Circuit Clerk is directed to remove this matter from the Court’s docket.
Pursuant to Rule 5 of the West Virginia Rules of Appellate Procedure, Mr. Knotts can
appeal this Court’s decision to the West Virginia Supreme Court of Appeals in Charleston, West
Virginia. In order to protect and keep this right of appeal, he must:

A.

Within Thirty (30) days from the entry of this order, file with the Clerk of
the West Virginia Supreme Court of Appeals in Charleston, West Virginia,
his notice of intent to appeal; and

B.

Within four (4) months from the entry of this order, file his perfected
petition for writ of error in accordance with Rule 5(g) of the West Virginia
Rules of Appellate Procedure with the West Virginia Supreme Court of
Appeals in Charleston, West Virginia.

Upon entry, the Court directs the Circuit Clerk of Marion County to provide certified
copies of this Final Order to Zachary Knotts, at his address: 1050 West View Drive, Fairmont,
West Virginia 26554; and to Jeffrey L. Freeman, Prosecuting Attorney for Marion County, at his
address: 213 Jackson Street, Fairmont, West Virginia 26554. The Circuit Clerk is further ordered
to remove this case from the Court’s docket.
Is/ David R. Janes
Circuit Court Judge
16th Judicial Circuit
Note: The electronic signature on this order can be verified using the reference code that appears in the
upper-left corner of the first page. Visit www.courtswv.gov/e-file/ for more details.

B-/o

IN THE CIRCUIT COURT OF MARION COUNTY, WEST VIRGINIA
DIVISION II
STATE OF WEST VIRGINIA,
Plain tiff,
ll-F-33

v.

FINAL ORDE

ZACHARY ALLEN KNOTTS,
Defendant.

ORDER REMOVING CASE FROM COURT DOCKET
On the 27th day of May, 2014, the State of West Virginia, by Dana R Shay, its Assistant
Prosecuting Attorney, having moved to remove the above styled case from the Court’s docket
due to Court jurisdiction having terminated as the Defendant has completed his hospitalization,
the Court does grant the motion and accordingly ORDERS the above styled case removed from
the Court docket.
It is further ORDERED that the Clerk of the Court provide a certified copy of this
Order upon entry to: Dana R. Shay; S. Sean Murphy.

ENTER:

ORDER PREPARED BY:

(NVk A
/

s

Dana R. Shay
/\
Assistant Prosecuting Attorney
213 Jackson Street
Fairmont, WV 26554

received
MAY 2 7 ZO^Yy
16th JUDICIAL CIRC'JntW. IJ

Additional material
from this filing is
available in the
Clerk's Office.

